(:.J-
 .
;;
~
"
 "ó

   '(1-~J¡
           SERVICES
      ~~,~g-s..viCES'"'.
     '"




        .llfVd30
                              DEPARTMENT OF HEALTH
                                            HEALTH && HUMAN
                                                      HUMA SERVICES
                                                            SERVICES                                             Office of
                                                                                                                        of Inspector
                                                                                                                           Inspector General
                                                                                                                 Washington, D.C.
                                                                                                                 Washington,
                                                                                                                                     General
                                                                                                                             D.C. 20201
                                                                                                                                  20201





                                                                  MAR 25
                                                                  MAR     2009
                                                                      25 2009


                           TO:            Charlene Frizzera
                                          Acting Administrator
                                          Centers for Medicare & Medicaid Services
                                                                          Services



                                      ~
                                                  ~~
                           FROM:
                                      Æ~~  oseph E. Vengrin
                                          Deputy Inspector General
                                                           General for
                                                                   for Audit Services
                                                                             Services


                           SUBJECT: Review of of
                                      Review  Medicaid
                                                 MedicaidParticipation
                                                            ParticipationEligibility
                                                                          Eligibilityforfor
                                                                                         OneOneIndiana
                                                                                                 IndianaState-owned
                                                                                                         State-owned
                                      Psychiatric Hospital for the Period July 1,1, 1996,
                                                                                     1996, Through June 30,
                                                                                                          30, 2007
                                                                                                              2007
                                      (A-05-07-00076)


                           Attached is an advance copy ofof our final report on Medicaid participation eligibility for
                           hospital A, an Indiana State-owned psychiatric hospital, forfOf the period July 1,
                                                                                                           1, 1996,
                                                                                                              1996, through
                           June 30,
                                30, 2007.
                                    2007. We
                                           We wil
                                               willissue
                                                    issuethis
                                                          thisreport
                                                               reportto
                                                                      tothe
                                                                         the Indiana
                                                                              Indiana Family
                                                                                      Family and
                                                                                              and Social
                                                                                                  Social Services
                                                                                                         Services
                                                               within 55 business
                           Administration (the State agency) within      business days.
                                                                                   days.

                                                                                                of 21 and
                           Medicaid inpatient psychiatric services for recipients under the age of    and for
                                                                                                          for those
                                                                                                              those age
                                                                                                                     age 65
                                                                                                                         65
                           and older may be provided in psychiatric hospitals, and those hospitals must meet
                                                                                                          meet both the basic
                           Medicare Conditions
                                     Conditions of Participation
                                                     Paricipation (CoP)
                                                                   (CoP) requirements
                                                                          requirements and two special Medicare CoP
                           requirements for
                           requirements  for staffing
                                             staffing and medical records.
                                                                    records. Special
                                                                             Special Medicare
                                                                                     Medicare CoP
                                                                                              CoP compliance
                                                                                                   compliance can
                                                                                                                can only
                                                                                                                    only be
                           established through a special survey process.

                           Our objective was to
                                              to determine whether the State agency made Medicaid payments to hospital A
                           for inpatient psychiatric services according to Federal eligibility requirements for hospitals.

                           During the period July 1, 1996, through June 30, 2007, the State agency paid $26,208,269
                           ($16,298,423
                           ($16,298,423 Federal
                                          Federal share)
                                                  share) to hospital A,
                                                         to hospital A, which
                                                                        which was
                                                                              was not
                                                                                  not eligible
                                                                                      eligible to
                                                                                               to receive
                                                                                                  receive Medicaid
                                                                                                          Medicaid payments
                                                                                                                   payments
                           for inpatient
                           for inpatient psychiatric
                                         psychiatric services.
                                                     services. Hospital
                                                               Hospital A did not meet Federal Medicaid eligibility
                           requirements because it did not demonstrate compliance with the two special Medicare CoP
                           requirements.

                           We recommend that the State agency:

                              •. refund
                                   refund$16,298,423
                                          $16,298,423totothe
                                                          theFederal
                                                              Federal Governent
                                                                      Governmentfor
                                                                                  forMedicaid
                                                                                      Medicaidinpatient
                                                                                                inpatientpsychiatric
                                                                                                          psychiatricservice
                                                                                                                      service
                                   payments made to hospital A from July 1, 1996, through June 30, 2007;
Page 2 – Charlene Frizzera


   •   identify and refund the Federal share of additional unallowable Medicaid payments to
       hospital A for inpatient psychiatric services provided after June 30, 2007; and

   •   ensure that Medicaid payments for inpatient psychiatric services are made only to eligible
       hospitals.

In written comments to our draft report, the State agency disagreed with the finding and first
recommendation and did not address the other recommendations. The State agency said that the
facts are sufficient to establish hospital A’s eligibility to receive Medicaid payments and that
hospital A’s claims related to the treatment of children are proper because the Medicare special
CoP do not apply to the treatment of patients age 21 and under.

After reviewing the State agency’s comments, we maintain that our finding and
recommendations are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at 312-353-2621
or through email at Marc.Gustafson@oig.hhs.gov. Please refer to report number A-05-07-
00076.


Attachment
('~
'-"~
...:..IJ~JJat
                                  DEPARTMENT
                                  DEPARTMENT OF HEALTH
                                                 HEALTH AND HUMAN SERVICES
                                             OFFICE OF
                                             OFFICE OF AUDIT SERVICES
                                                   233 NORTH MICHIGAN AVENUE
                                                   233
                                                     CHICAGO, ILLINOIS
                                                     CHICAGO, ILLINOIS 60601
                                                                       60601
                                                                                                                        REGION
                                                                                                                        REGION
                                                                                                                        OFFICE
                                                                                                                        OFFICE
                                                                                                                               V
                                                                                                                               V
                                                                                                                               OF
                                                                                                                               OF
                                                                                                                   INSPECTOR GENERAL
                                                                                                                   INSPECTOR




                                                           MAR 30 20D9

                                                           MAR 30  20D9
       Report Number:
       Report Number: A-05-07-00076
                      A-05-07-00076

       Ms. Pat Casanova
       Ms.
       Director, Office
       Director, Offce of
                        of Medicaid Policy and
                                           andPlanning
                                               Planing
       Indiana Family and Social Services Administration
       402 West Washington Street, MS07
       Indianapolis,
       Indianapolis, Indiana
                     Indiana 46204-2739

       Dear Ms. Casanova:

       Enclosed is the is
       Enclosed        U.S.the   U.S.ofDepartment
                             Department    
            of Health and Human
                                                                        Human Services
                                                                                Services (HHS),
                                                                                          (HHS), Office
                                                                                                 Office ofInspector
                                                                                                         ofInspector
       General (OIG),
       General       (010), final final report
                                          report entitled
                                                 entitled "Review of of Medicaid Participation
                                                                                  Paricipation Eligibility
                                                                                                Eligibility for
                                                                                                            for One
                                                                                                                One
       Indiana State-owned
                    State-owned PsychiatricPsychiatric Hospital
                                                        Hospital for
                                                                 for the
                                                                      the Period
                                                                          Period July
                                                                                 July I, 1996, Through June 30, 2007."
                                                                                      l, 1996,
       We
       We wil will    a copy of 
 a copy of this report to
              forwardforward                                to the HHS action official noted on the following page for
       review
       review      and
                   and anyany
                            actionaction
                                   deemed    deemed necessary.

       The HHSHHS action official will make final determination as to actions taken on all matters reported.
       We    request
       We request that youthat
                           respondyou   respond
                                   to this            to 30this
                                           offcial within    days official    within
                                                                  from the date of 
 30 days from the date of this letter.
                                                                                                                   letter. Your
       response should present any comments           comments or additional information that you believe may        may have
                                                                                                                           have a
       bearing on the final    final determination.

                 to the
       Pursuant to  the Freedom
                         Freedom ofInformation
                                   ofInformation Act, 5 U.S.c.
                                                           U.S.c. §§ 552,
                                                                     552, OIG
                                                                          OIG reports
                                                                                 reports generally
                                                                                         generally are made
       available to
                 to the
                     the public
                         public to
                                to the extent that information in the report is not subject to exemptions in
           Act. Accordingly,
       the Act. Accordingly, this
                                this report
                                      report will
                                             will be
                                                  be posted
                                                     posted on
                                                            on the
                                                               the Internet
                                                                    Internet at
                                                                             at http://oig.hhs.gov.
                                                                                http://oig.hhs.gov.

              have any
       If you have any questions or comments
                                    comments about this report, please do not hesitate to call me, or
                     Markulin, Audit Manager,
       contact David Markulin,        Manager, at (312) 353-1644 or through e-mail at
       David.Markulin(ßoig.hhs.gov. Please
       David.Markulin@oig.hhs.gov.    Please refer
                                             refer to
                                                    to report
                                                       report number
                                                              number A-05-07-00076
                                                                     A-05-07-00076 in all
       correspondence.

                                                               Sincerely,


                                                               1rJ~~-y
                                                               1r~~-y
                                                               Marc Gustafson
                                                               Regional Inspector General
                                                               Regional Inspector  General

                                                                 for Audit Services


        Enclosure
Page 2 – Ms. Pat Casanova


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF MEDICAID
PARTICIPATION ELIGIBILITY FOR
 ONE INDIANA STATE-OWNED
PSYCHIATRIC HOSPITAL FOR THE
PERIOD JULY 1, 1996, THROUGH
        JUNE 30, 2007




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-05-07-00076
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Medicaid generally covers inpatient psychiatric services for eligible recipients who are under the
age of 21 or age 65 and older at institutions for mental disease (IMD), which include psychiatric
hospitals. To receive payment for these services, psychiatric hospitals must meet certain Federal
Medicaid eligibility requirements.

Medicaid inpatient psychiatric services for recipients under the age of 21 and for those age 65
and older may be provided in psychiatric hospitals and those psychiatric hospitals must meet
both the basic Medicare Conditions of Participation (CoP) requirements and two special
Medicare CoP requirements for staffing and medical records. Psychiatric hospitals must comply
with basic and special Medicare CoP to receive federally matched funding for inpatient
psychiatric services provided to recipients. Generally, all Medicaid-participating hospitals
demonstrate compliance with the basic Medicare CoP requirements through an accreditation
process performed by the Joint Commission on Accreditation of Healthcare Organizations
(JCAHO). However, psychiatric hospitals must also meet the two additional special Medicare
staffing and medical record CoP requirements. Compliance with these requirements is not
measured by JCAHO accreditation. Special Medicare CoP compliance can only be established
through a special survey process.

The Indiana Family and Social Services Administration (the State agency) administers Indiana’s
Medicaid program. Pursuant to the CMS-approved State plan, the State agency provides
federally matched Medicaid funding to eligible hospitals. The State agency operates psychiatric
hospitals under the administrative control of the Division of Mental Health. State-owned
psychiatric hospitals and IMDs are responsible for inpatient care, treatment, or detention of
children, adolescents, and adults with severe mental disorders. During the period July 1, 1996,
through June 30, 2007, the State agency made Medicaid payments totaling $26,208,269
($16,298,423 Federal share) for inpatient psychiatric services to a State-owned psychiatric
hospital (hospital A). In a previous audit report (A-05-06-00045, May 13, 2008), we reported
that the State agency made Medicaid disproportionate share hospital payments totaling
$86.1 million ($53.4 million Federal share) from July 1, 2000, through June 30, 2003, to
hospital A when it did not meet Medicaid eligibility requirements.




                                                i
OBJECTIVE

The objective was to determine whether the State agency made Medicaid payments to hospital A
for inpatient psychiatric services according to Federal eligibility requirements for hospitals.

SUMMARY OF FINDING

During the period July 1, 1996, through June 30, 2007, the State agency paid $26,208,269
($16,298,423 Federal share) to hospital A, which was not eligible to receive Medicaid payments
for inpatient psychiatric services. Hospital A did not meet Federal Medicaid eligibility
requirements because it did not demonstrate compliance with the two special Medicare CoP
requirements. The State agency believed that hospital A demonstrated substantial compliance
with the Federal Medicaid eligibility requirements through its JCAHO accreditation. However,
Federal regulations stipulate that JCAHO accreditation does not demonstrate special Medicare
CoP compliance for psychiatric hospitals.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $16,298,423 to the Federal Government for Medicaid inpatient psychiatric service
       payments made to hospital A from July 1, 1996, through June 30, 2007;

   •   identify and refund the Federal share of additional unallowable Medicaid payments to
       hospital A for inpatient psychiatric services provided after June 30, 2007; and

   •   ensure that Medicaid payments for inpatient psychiatric services are made only to eligible
       hospitals.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, the State agency disagreed with the finding and first
recommendation and did not address the other recommendations. The State agency said that the
facts are sufficient to establish hospital A’s eligibility to receive Medicaid payments and that
hospital A’s claims related to the treatment of children are proper because the Medicare special
CoP do not apply to the treatment of patients age 21 and under.

The State agency’s comments, excluding personally identifiable information, are included as the
Appendix.

After reviewing the State agency’s comments, we maintain that our finding and
recommendations are valid.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program............................................................................................................... 1
       Medicaid Inpatient Psychiatric Services............................................................................. 1
       Medicaid Hospital Eligibility Requirements ...................................................................... 1
       Indiana Psychiatric Hospitals.............................................................................................. 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
       Objective ............................................................................................................................. 2
       Scope................................................................................................................................... 2
       Methodology ....................................................................................................................... 2

FINDING AND RECOMMENDATIONS.................................................................................. 3

     UNALLOWABLE MEDICAID PAYMENTS ........................................................................ 3
       Federal Requirements ......................................................................................................... 3
       Hospital A Ineligible for Medicaid Payments .................................................................... 3
       Unmet Federal Requirements ............................................................................................. 4

     RECOMMENDATIONS.......................................................................................................... 4

     STATE AGENCY COMMENTS............................................................................................. 4

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Medicaid Inpatient Psychiatric Services

Medicaid generally covers inpatient psychiatric services for eligible recipients who are under the
age of 21 or age 65 and older at institutions for mental disease (IMD), which include psychiatric
hospitals. In limited circumstances, Medicaid covers these services until a recipient reaches the
age of 22. To receive payment for these services, psychiatric hospitals must meet certain Federal
Medicaid eligibility requirements.

Medicaid Hospital Eligibility Requirements

Sections 1905(a)(16) and 1905(h)(1)(A) of the Act require that Medicaid inpatient psychiatric
services for recipients under the age of 21 be provided in psychiatric hospitals that meet the
definition of psychiatric hospital in section 1861(f) of the Act. Section 1861(f) requires
psychiatric hospitals to meet the basic Medicare Conditions of Participation (CoP) requirements 1
and to meet two special Medicare CoP requirements for staffing and medical records.

Federal regulation (42 CFR § 440.140(a)) requires psychiatric hospitals to comply with basic and
special Medicare CoP to receive federally matched funding for inpatient IMD services provided
to recipients who are age 65 and older. Generally, all Medicaid-participating hospitals
demonstrate compliance with the basic Medicare CoP requirements through an accreditation
process performed by the Joint Commission on Accreditation of Healthcare Organizations
(JCAHO). However, psychiatric hospitals must also meet the two special Medicare CoP
requirements. Pursuant to 42 CFR § 488.5(a)(2), compliance with these requirements is not
measured by JCAHO accreditation. The CMS “State Operations Manual,” section 2718A,
stipulates that special Medicare CoP compliance can only be established through a special survey
process.

Indiana Psychiatric Hospitals

The Indiana Family and Social Services Administration (the State agency) administers Indiana’s
Medicaid program. The State agency operates State-owned psychiatric hospitals under the
1
    Medicare CoP requirements as stated in §§ 1861(e)(3) through (9) of the Act.


                                                           1
administrative control of the Division of Mental Health. Pursuant to the State plan, these
hospitals are responsible for inpatient care, treatment, or detention of children, adolescents, and
adults with severe mental disorders. During the period July 1, 1996, through June 30, 2007, the
State agency made Medicaid payments totaling $26,208,269 ($16,298,423 Federal share) for
inpatient psychiatric services to one State-owned psychiatric hospital (hospital A). In a previous
audit report (A-05-06-00045, May 13, 2008), we reported that the State agency made Medicaid
disproportionate share hospital payments totaling $86.1 million ($53.4 million Federal share)
from July 1, 2000, through June 30, 2003, to hospital A when it did not meet Medicaid eligibility
requirements.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective was to determine whether the State agency made Medicaid payments to hospital A
for inpatient psychiatric services according to Federal eligibility requirements for hospitals.

Scope

We reviewed Medicaid payments for inpatient psychiatric services made to hospital A during the
period July 1, 1996, through June 30, 2007. Our objective did not require a review of the State
agency’s internal controls for processing Medicaid payments.

We performed fieldwork by contacting the State agency in Indianapolis, Indiana.

Methodology

To accomplish the objective we:

    •   reviewed Federal Medicaid requirements regarding hospital eligibility,

    •   identified dates for which the State agency and hospital A could not demonstrate
        compliance with Federal regulations and special Medicare CoP requirements, 2 and

    •   used available State agency payment records to quantify the State and Federal funding
        amounts for Medicaid payments made to hospital A for inpatient psychiatric services
        provided during the audit period and the dates for which compliance with Federal
        requirements could not be demonstrated.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.
2
 The State agency and hospital A did not demonstrate compliance with special Medicare CoP for the period
February 15, 1982, through June 30, 2007. We made no compliance determinations for periods after June 30, 2007.


                                                       2
                          FINDING AND RECOMMENDATIONS

During the period July 1, 1996, through June 30, 2007, the State agency paid $26,208,269
($16,298,423 Federal share) to hospital A, which was not eligible to receive Medicaid payments
for inpatient psychiatric services. Hospital A did not meet Federal Medicaid eligibility
requirements because it did not demonstrate compliance with the two special Medicare CoP
requirements. The State agency believed that hospital A demonstrated substantial compliance
with the Federal Medicaid eligibility requirements through its JCAHO accreditation. However,
Federal regulations stipulate that JCAHO accreditation does not demonstrate special Medicare
CoP compliance for psychiatric hospitals.

UNALLOWABLE MEDICAID PAYMENTS

During the period July 1, 1996, through June 30, 2007, the State agency made Medicaid
payments totaling $26,208,269 ($16,298,423 Federal share) to hospital A for inpatient
psychiatric services that were provided during periods when hospital A did not meet Medicaid
eligibility requirements.

Federal Requirements

Sections 1905(a)(16) and 1905(h)(1)(A) of the Act require that Medicaid inpatient psychiatric
services for recipients under the age of 21 be provided in psychiatric hospitals as defined in
§ 1861(f) of the Act. Section 1861(f)(2) requires psychiatric hospitals to meet the basic
Medicare CoP requirements as stated in §§ 1861(e)(3) through (9), and §§ 1861(f)(3) and (4)
require these hospitals to meet two special Medicare CoP requirements for staffing and medical
records.

Federal regulation (42 CFR § 440.140(a)) requires IMDs, including psychiatric hospitals, to meet
the requirements at 42 CFR § 482.60(b), (c), and (d) to receive federally matched Medicaid
funding for inpatient services provided to recipients age 65 and older. All hospitals must comply
with the basic Medicare CoP requirements (42 CFR § 482.60(b)) that address licensing, quality
of care, safety, patient rights, self-assessment and performance improvement, service
availability, utilization and review, and other requirements that apply to participating hospitals
(42 CFR §§ 482.1 through 482.57). Psychiatric hospitals must also comply with the two special
Medicare staffing and medical record CoP requirements (42 CFR 482.60(c) and (d)). The CMS
“State Operations Manual,” section 2718A, adds clarification, requiring psychiatric hospitals to
be surveyed to establish compliance with the special Medicare CoP requirements.

Psychiatric hospitals must meet these requirements before they can receive federally matched
Medicaid funding.

Hospital A Ineligible for Medicaid Payments

Hospital A was ineligible for Medicaid payments received from July 1, 1996, through June 30,
2007, for inpatient psychiatric services because it did not comply with the special Medicare CoP
requirements. Specifically, the facility did not demonstrate compliance with the special



                                                3
Medicare staffing and medical record requirements for psychiatric hospitals through the special
Medicare CoP survey process.

Unmet Federal Requirements

The State agency believed that hospital A was eligible to receive Medicaid payments because
hospital A demonstrated substantial Medicare CoP compliance through its JCAHO accreditation.
Although all Medicaid-participating hospitals must have JCAHO accreditation to demonstrate
compliance with the basic Medicare CoP requirements, psychiatric hospitals must also meet the
special Medicare staffing and medical record CoP requirements. Pursuant to 42 CFR § 488.5(a)(2),
JCAHO accreditation does not demonstrate compliance with the special Medicare CoP requirements.

Pursuant to the CMS “State Operations Manual,” section 2718A, compliance with the special
Medicare CoP requirements can only be demonstrated through a special survey process. The
State agency and hospital A were unable to establish hospital A’s compliance with the special
Medicare CoP requirements for the period from February 15, 1982, through June 30, 2007.
CMS terminated hospital A from Medicare program participation under involuntary conditions
on February 15, 1982. When hospital A applied for readmission to the Medicare program in
August 2006, CMS rejected the application specifically because it did not comply with the two
special Medicare CoP requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $16,298,423 to the Federal Government for Medicaid inpatient psychiatric service
       payments made to hospital A from July 1, 1996, through June 30, 2007;

   •   identify and refund the Federal share of additional unallowable Medicaid payments to
       hospital A for inpatient psychiatric services provided after June 30, 2007; and

   •   ensure that Medicaid payments for inpatient psychiatric services are made only to eligible
       hospitals.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency disagreed with the finding and first
recommendation and did not address the other recommendations. The State agency said that the
facts are sufficient to establish hospital A’s eligibility to receive Medicaid payments. Although
the State agency was unable to locate hospital A’s special CoP survey documentation, it
produced a letter to hospital A that described the State’s process and specific requirements,
including a survey for compliance with the special CoP, which must be met to qualify for
Medicaid reimbursement. The State agency also provided a subsequent letter to hospital A
certifying the facility as a Medicaid provider of psychiatric hospital services. The State agency
concluded that this documentation is sufficient evidence that hospital A complied with the
special CoP during the audit period.


                                                4
In addition, the State agency said that the Medicare special CoP do not apply to the treatment of
patients age 21 and under, and hospital A’s claims related to the treatment of children are
therefore proper. Based on its review of Federal requirements at 42 CFR § 440.160(b)(1) and
42 CFR § 441.151(a)(2)(i), the State agency concluded that special CoP compliance is not
required for psychiatric hospitals to provide inpatient services to individuals age 21 and under.

The State agency’s comments, excluding personally identifiable information, are included as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our finding and
recommendations are valid. The State agency was unable to locate hospital A’s actual survey
documentation. Without reviewing this documentation, we cannot determine whether hospital A
was properly certified as meeting the special Medicare CoP, as required by the CMS “State
Operations Manual,” section 2718A. Regarding the provision of inpatient psychiatric services to
recipients age 21 and under, § 1905(a)(16) and § 1905(h)(1)(a) of the Act require these services
to be provided in psychiatric hospitals as defined in § 1861(f) of the Act. Sections 1861(f)(3)
and (4) require special CoP compliance for psychiatric hospitals. Hospital A is a psychiatric
hospital and therefore must demonstrate special CoP compliance to provide these services.




                                                5
APPENDIX
APPENDIX
Page 1 of 10
                                                                                APPENDIX
                                                                                Page 2 of 10




Office of Inspector General note: We have removed personally identifiable information
from this appendix.
APPENDIX
Page 3 of 10
APPENDIX
Page 4 of 10
APPENDIX
Page 5 of 10
APPENDIX
Page 6 of 10
APPENDIX
Page 7 of 10
APPENDIX
Page 8 of 10
APPENDIX
Page 9 of 10
 APPENDIX
Page 10 of 10
